NO. 20-7796

IN THE SUPREME COURT OF THE UNITED STATES
MAURICE ATKINSON,
Petitioner
vs
UNITED STATES OF AMERICA,
Respondent

PROOF OF SERVICE
The undersigned hereby certifies as follows:
1. I mailed a copy of the enclosed Brief of Respondent, Douglas Kelly, in
Support of Petition for Writ of Certiorari for filing, by USPS, priority mail,
postage prepaid and properly addressed to the Clerk of this Court;
2. I served the enclosed Brief on the following in the manner indicated:
Michael Consiglio, Esquire - Via Email
Assistant U.S. Attorney
michael.consiglio@usdoi .gov
Elizabeth Prelogar, Acting Solicitor General - Via First Class Mail
Office of the Solicitor General
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
John F. Yaninek, Esquire - Via Email
ivaninek@tthlaw.com

Dated: May 12, 2021

Richard F. Maffett, Jr., Esquire
Attorney for Respondent,
Douglas Kelly

